<html>
<title> - WOMEN LEADING THE WAY: THE DEMOCRATIC MOVEMENT IN BELARUS</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                  WOMEN LEADING THE WAY: THE DEMOCRATIC 
                         MOVEMENT IN BELARUS

=======================================================================

                                HEARING

                               BEFORE THE

       SUBCOMMITTEE ON EUROPE, ENERGY, THE ENVIRONMENT AND CYBER

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 17, 2021

                               __________

                            Serial No. 117-9

                               __________

        Printed for the use of the Committee on Foreign Affairs

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

       Available:  http://www.foreignaffairs.house.gov/, http://
                            docs.house.gov, 
                       or http://www.govinfo.gov
                       
                               __________

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-701 PDF                 WASHINGTON : 2021                     
          
-----------------------------------------------------------------------------------                        
                       
                       
                       
                      COMMITTEE ON FOREIGN AFFAIRS

GREGORY W. MEEKS, New York, Chairman
                  
BRAD SHERMAN, California              MICHAEL T. McCAUL, Texas, Ranking 
ALBIO SIRES, New Jersey                  Member
GERALD E. CONNOLLY, Virginia	      CHRISTOPHER H. SMITH, New Jersey
THEODORE E. DEUTCH, Florida	      STEVE CHABOT, Ohio
KAREN BASS, California		      SCOTT PERRY, Pennsylvania
WILLIAM KEATING, Massachusetts	      DARRELL ISSA, California
DAVID CICILLINE, Rhode Island	      ADAM KINZINGER, Illinois
AMI BERA, California		      LEE ZELDIN, New York
JOAQUIN CASTRO, Texas	              ANN WAGNER, Missouri
DINA TITUS, Nevada		      BRIAN MAST, Florida
TED LIEU, California		      BRIAN FITZPATRICK, Pennsylvania
SUSAN WILD, Pennsylvania	      KEN BUCK, Colorado
DEAN PHILLIPS, Minnesota	      TIM BURCHETT, Tennessee
ILHAN OMAR, Minnesota		      MARK GREEN, Tennessee
COLIN ALLRED, Texas		      ANDY BARR, Kentucky
ANDY LEVIN, Michigan		      GREG STEUBE, Florida
ABIGAIL SPANBERGER, Virginia	      DAN MEUSER, Pennsylvania
CHRISSY HOULAHAN, Pennsylvania	      AUGUST PFLUGER, Texas
TOM MALINOWSKI, New Jersey	      PETER MEIJER, Michigan
ANDY KIM, New Jersey	              NICOLE MALLIOTAKIS, New York
SARA JACOBS, California		      RONNY JACKSON, Texas
KATHY MANNING, North Carolina	      YOUNG KIM, California
JIM COSTA, California		      MARIA ELVIRA SALAZAR, Florida
JUAN VARGAS, California		      JOE WILSON, South Carolina
VICENTE GONZALEZ, Texas		      RON WRIGHT, Texas
BRAD SCHNEIDER, Illinois          
                                  
                    Jason Steinbaum, Staff Director
               Brendan Shields, Republican Staff Director
               
                                 ------                                

        Subcommittee on Europe, Energy,the Environment and Cyber

WILLIAM R. KEATING, Massachusetts, Chairman

SUSAN WILD, Pennsylvania             BRIAN FITZPATRICK, 
ABIGAIL SPANBERGER, Virginia             Pennsylvania,Ranking Member
ALBIO SIRES, New Jersey		     ANN WAGNER, Missouri
THEODORE DEUTCH, Florida	     ADAM KINZINGER, Illinois,
DAVID CICILLINE, Rhode Island	     BRIAN MAST, Florida
DINA TITUS, Nevada		     DAN MEUSER, Pennsylvania
DEAN PHILLIPS, Minnesota	     AUGUST PFLUGER, Texas
JIM COSTA, California		     NICOLE MALLIOTAKIS, New York
VICENTE GONZALEZ, Texas		     PETER MEIJER, Michigan
BRAD SCHNEIDER, Illinois
                                  
                      Leah Nodvin, Staff Director
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page

                    PHOTOS SUBMITTED FOR THE RECORD

Photos submitted for the record from Mr. Smith...................     7

                               WITNESSES

Tsikhanouskaya, Sviatiana, Belarusian Human Rights Activist and 
  Politician.....................................................    23

                          INFORMATION REFERRED

Information referred to from Mr. Fitzpatrick.....................    33

                                APPENDIX

Hearing Notice...................................................    47
Hearing Minutes..................................................    48
Hearing Attendance...............................................    49

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD

Responses to questions submitted for the record..................    50

 
       WOMEN LEADING THE WAY: THE DEMOCRATIC MOVEMENT IN BELARUS

                       Wednesday, March 17, 2021

                          House of Representatives,
                Subcommittee on Europe, Energy, the
                             Environment and Cyber,
                      Committee on Foreign Affairs,
                                                    Washington, DC,

    The subcommittee met, pursuant to notice, at 9:32 a.m., via 
Webex, Hon. William R. Keating (chairman of the subcommittee) 
presiding.
    Mr. Keating [presiding]. The House Foreign Affairs 
subcommittee will come to order.
    And without objection, the chair is authorized to declare a 
recess of the committee at any point. And all members will have 
5 days to submit , extraneous material, and questions for the 
record, subject to the length limitations in the rules. To 
insert something into the record, please have your staff email 
to the previously mentioned address or contact full committee 
staff.
    Please keep your video function on at all times, even when 
you are not recognized by the chair. Members are responsible 
for muting and unmuting themselves. Please remember to mute 
yourself after you finish speaking.
    Consistent with House Resolution 965 and the accompanying 
regulations, staff will only mute members and witnesses, as 
appropriate, when they are not under recognition, to eliminate 
background noise.
    I see that we have a quorum present. I will now recognize 
myself for an opening statement.
    Pursuant to notice, we are holding a hearing today entitled 
``Women Leading the Way: The Democratic Movement in Belarus''.
    I will begin my statement. In the days leading up to August 
2020 and the Presidential election that day in Belarus, one 
after another, the Presidential candidates who opposed 
Alexander Lukashenko were jailed or forced out of the country. 
The election then took place without international observers 
under the control of State-owned media and in an atmosphere of 
fear and intimidation.
    On the actual election day, Sviatiana Tsikhanouskaya 
stepped in for her husband, Siarhei Tikhanouski, a typical 
activist and blogger who was jailed just a few weeks before. 
During the election process, independent sources found that 
Sviatiana Tsikhanouskaya received more votes than the incumbent 
Lukashenko, and when the election results came in, it was clear 
to Belarusians and the international community at large that 
the election had taken place in fraudulent conditions and that 
Lukashenko could not claim victory. Yet, Lukashenko claimed 
himself to be President, underestimating the will of the 
Belarusian people and the strength of Sviatiana Tsikhanouskaya.
    After 26 years of dictatorial rule, the Belarusian people 
had had enough. They gathered in the streets en masse, 
peacefully demonstrated against the Lukashenko regime and for 
their right to a new, free, and fair election. They organized 
themselves through new means of technology, sharing information 
over applications like Telegram.
    And what is so striking for many of us in the U.S. was that 
they were led by a coalition of women who called for solidarity 
with Sviatiana Tsikhanouskaya. Unfortunately, these peaceful 
demonstrations were met with State-sponsored violence that was 
organized and mandated by the highest levels of government. 
Security forces began to beat and detain hundreds of peaceful 
demonstrators, crack down on independent journalists, and 
intimidate opposition leaders.
    The Lukashenko regime took Sviatiana Tsikhanouskaya into a 
government building, directly threatened her and her family, 
and thus, forced her into exile in Lithuania. Later, activists 
like Maria Kalesnikava were kidnapped and attempts were made to 
force them out of the country as well. And finally, journalists 
like Katsiaryna Andreyeva and Darya Chultsova were arrested and 
jailed for simply filming peaceful demonstrations.
    Authorities have arbitrarily detained and physically, 
sexually, and emotionally assaulted tens of thousands of 
peaceful protestors, journalists, and civil society members. 
Today, hundreds remain in detention, and many have recounted 
experiencing torture, sexual violence and rape, beatings, and 
other ill treatment. At least eight protestors have been 
killed.
    And today, the Belarusian people mark 221 days or 
resistance against brutal authoritarian oppression. It has been 
over 7 months in a fight to establish a rule of law and achieve 
a democratic future for their country.
    We in Congress must stand with the people of Belarus as 
they push for democracy. We must recognize the sacrifices made 
daily by peaceful protestors who take to the streets, knowing 
full well that they will face harassment, intimidation, 
unlawful detention, or worse. And we must salute the courage of 
the women of Belarus who in a highly patriarchal society have 
shown strength, determination, and leadership, standing at the 
center of organizations like Coordination Council, in an 
attempt to establish a dialog with the Lukashenko regime and 
initiate new, free, and fair elections.
    Our expert witness today knows all too well the challenges 
posed by autocratic regimes who benefit from corruption and 
whose close friends and allies only support repressive tactics.
    Yet, the continuous fight for democracy around the world is 
real and can take different forms. We have watched some 
countries, such as those in Central Europe, who have fallen 
into the trap that is democratic backsliding and illiberalism. 
We have watched as authoritarian States have used the pandemic 
to gather even greater control over their citizens, such as the 
recent arrest of almost 200 opposition leaders in Moscow. And 
we here in Washington have had to confront the fragile nature 
of our own democracy, as just months ago, violent, armed 
insurrectionists stormed the U.S. Capitol in an attempt to halt 
the democratic process for a free and fair election.
    In times marked by challenges to democracy at home and 
abroad, one democracy must lend its hand to another. Helping 
democratic allies across borders and oceans can ensure that 
societies seeking to establish democratic, often in the face of 
anti-democratic threats, can prevail. A network of support, and 
the ability to communicate with that network, is a necessary 
component to democratic strength. That is why we, the 
transatlantic community and the U.S. Congress, must stand in 
unity and support the democratic movement in Belarus and all 
those who fight to establish or protect their democracy abroad.
    That is why last September I held a hearing before this 
subcommittee on the democratic awakening of governments. That 
hearing included firsthand accounts of images of violence 
inflicted upon the Belarusian people by security forces, with 
introduced resolutions condemning the human rights abuses by 
Lukashenko and praising the bravery of the Belarusian citizens. 
We have also passed the revised version of the Belarus 
Democracy, Human Rights, and Sovereignty Act, authored by 
Representative Chris Smith, which expanded the robust set of 
sanctions and authorities related to Belarus at the President's 
disposal.
    Yet, while we have taken these steps forward, it is the 
peaceful protestors on the ground in Belarus and the Belarusian 
diaspora around the world from Vilnius to Cape Cod that 
continues to drive movements and democracy forward and to keep 
this fight for democracy in Belarus alive.
    With that being said, I am pleased to welcome the woman who 
has become the leader of the democratic movement in Belarus, 
Sviatiana Tsikhanouskaya, as our expert witness today. She did 
not plan to run for President. However, as she has said, she 
has shown up for her people because her people showed up for 
her. Her steadfast courage, dedication, and tenacity is 
remarkable, and I look forward to our discussion.
    I now turn to the ranking member for his remarks, Mr. 
Fitzpatrick.
    Mr. Fitzpatrick. Good morning, and thank you, Chairman 
Keating.
    Today, we gather to recognize the bravery of our witness, 
Sviatiana Tsikhanouskaya, and her inspiring campaign to promote 
democratic aspirations in the people of Belarus. You and 
historic peaceful protestors have stand down overwhelming odds 
and lit a fire to a renewed democratic spirit in Belarus. And 
this movement is now shining a light on the authoritarian 
shadow that has covered the citizens of Belarus during 
Alexander Lukashenko's rule.
    I would also like to acknowledge the Coordination Council, 
its members, and all the Belarusian citizens engaging in the 
noble pursuit of a free and democratic society. And it is worth 
noting, as we recognize International Women's Month, that 
exceptionally brave and daring women are leading this 
democratic revolution in Belarus.
    Mrs. Sviatiana Tsikhanouskaya and thousands of women like 
her have proven to their country and the rest of the world that 
the future is in their able hands. These freedom fighters are 
not seeking unreasonable terms. They seek legal process. They 
seek freedom of expression and information, and they seek 
freedom from the harassment of an oppressive state. And they 
seek freedom to chart their own future.
    Following the August 9th election, the people of Belarus 
wanted their voices heard in response to the dictatorial 
actions of Lukashenko. In response to these citizens' peaceful 
protests, Lukashenko's security forces responded with excessive 
force, the use of chemical riot dispersion methods and 
measures, and detained citizens completely without cause. 
Plainclothes police officers have engaged in increasingly 
aggressive and brutal crackdowns of those who are peacefully 
protesting the election results and its resulting movement.
    International monitors estimate that more than 32,000 
Belarusians have been temporarily detained and imprisoned, and 
nearly 300 political prisoners remain behind bars as of this 
hearing this morning. According to a report by the European 
Parliament last year, at least 10 demonstrators have been 
killed by government forces or died while in custody under 
suspicious circumstances.
    The harrowing account of our witness describes the 
situation of jailed protestors that, quote, ``have been rounded 
up and housed like cattle in tiny, overcrowded jail cells 
without access to water, sanitization, or any normal sleeping 
positions,'' going on to say that, ``torture is now 
commonplace.''
    Lukashenko has smothered free speech in Belarus and 
manipulated the media to suppress the surge in his opposition 
and conceal the tactics of his oppression. Russian 
propagandists were flown in to work for State-run TV in 
Belarus. Meanwhile, independent journalists have faced 
intimidation and imprisonment. Local critics of the regime face 
trumped-up charges and are imprisoned for speaking truth to 
power.
    And as the illegitimate regime in Belarus continues to 
normalize a litany of human rights violations, the calls for 
Mr. Lukashenko to step down and recognize a new, free, and fair 
system of elections is gaining momentum worldwide. A group in 
my home State of Pennsylvania even organized a rally in 
Pittsburgh in a snow-covered day this year to raise awareness 
of the plight of their loved ones. And as such, the United 
States, in coordination with its European allies and partners, 
must be vigilant and robust in our support for Belarus and 
their civil society and those who are persecuted by the 
Lukashenko regime.
    In line with the Belarus Democracy, Human Rights, and 
Sovereignty Act of 2020, which I cosponsored, we must continue 
to demand the end of Lukashenko's violence and the release of 
all those wrongfully detained, and continue harsh sanctions for 
those complicit in these human rights violations. The 
illegitimate Lukashenko regime must, once and for all, step 
down and allow for free and fair elections to be held. The 
people of Belarus are demanding the right to chart their own 
future, and their voices deserve to be heard.
    I yield back.
    Mr. Keating. I would like to thank the ranking member.
    And without objection, I would like to recognize 
Representative Smith, who is the author of the Belarus 
Democracy Act, for a brief statement.
    Mr. Smith. Mr. Chairman, thank you so very much for 
inviting me to be and allowing to be part of your panel, and to 
Brian Fitzpatrick, as well as to you, for the great work that 
you gentlemen are doing and this subcommittee. Your resolution 
that is pending, I think, will, again, reiterate the 
bipartisan, bicameral support of Congress behind Tsikhanouskaya 
and the rest of the human rights activists and defenders in 
Belarus.
    The leadership that you have shown and that the people of 
Belarus have shown, despite incredible odds, despite the fact 
that the bullies are out there beating, arresting, torturing, 
and even killing the best and the bravest and the brightest of 
Belarus.
    The picture, Mr. Chairman, that you have painted, as well 
as the ranking member, is both bleak and hopeful--bleak because 
Lukashenko is still in charge, but hopeful because the people 
of Belarus have you to champion their dreams, and that goes for 
this leadership led by women who are in exile, some of whom are 
in exile; others, sadly, are in prison.
    My work on Belarus goes back to really the 1990's. And in 
2004, I authored the Belarus Democracy Act, which really has 
become the template for Magnitsky holding men and women in the 
Lukashenko regime, both in terms of visa denial and making them 
unable to participate in any kind of economic relationship with 
the U.S. and U.S. banks. I did it again in 2006, 2011, and as 
you pointed out, the 2020 Act, which reiterates and expands and 
puts an emphasis on sovereignty, because we know that the 
Russians are eying Belarus in a way that is reminiscent of what 
they did with the Crimea and other parts of the Ukraine.
    Again, according to the representative of the OSCE, the 
Belarusian authorities have filed at least 141 politically 
motivated cases again women. Forty-nine are currently in 
detention or under house arrest. Another 75 are suspects in 
politically motivated criminal cases, and thousands of other 
women have fled Belarus in fear for their safety. Despite all 
of this, the image of Belarusian women in white has become 
iconic, representing the hopes of all Belarusians for a better 
future.
    Again, thank you for this timely hearing. And again, it 
gives us all an opportunity to say we are in solidarity with 
these incredibly brave women and men.
    Thank you, Mr. Chairman, and I yield back.
    Mr. Keating. Thank you, Representative Smith, and thank you 
for your longstanding work on this important issue.
    Mr. Smith. Thank you.
    Mr. Keating. I will now introduce our witness. Ms. 
Sviatiana Tsikhanouskaya is a central leader of the democratic 
movement in Belarus and a human rights activist who challenged 
Alexander Lukashenko at the 2020 Presidential election. This 
Belarusian election was fraught with widespread fraud and 
followed by unjustifiable violence.
    In the months following, Sviatiana Tsikhanouskaya has been 
a symbol leader of the Belarusian protests and has contributed 
greatly to promoting and organizing positive change in Belarus, 
both through her domestic and international engagement.
    The Europe Parliament recognized the fight of Belarusian 
people for democracy and freedom, led by Sviatiana 
Tsikhanouskaya, by awarding her, among other leaders, the 
prestigious annual Sakharov Prize. She has also received a 
series of international awards for her courageous struggle 
against the authoritarian regime of Lukashenko.
    I will now recognize, and State my pleasure at joining us, 
Ms. Tsikhanouskaya, for 5 minutes. And without objection, your 
prepared written statement will be made a part of the record.
    Ms. Tsikhanouskaya, you are now recognized for your opening 
statement.

STATEMENT OF SVIATIANA TSIKHANOUSKAYA, BELARUSIAN HUMAN RIGHTS 
                    ACTIVIST AND POLITICIAN

    Ms. Tsikhanouskaya. Good morning, everyone.
    Chairman Keating, Ranking Member Fitzpatrick, Honorable 
Representative Smith, and distinguished members of the 
subcommittee, first of all, I would like to extend my Saint 
Patrick's Day greetings to all of you. Mr. Keating, as you may 
know from me, Ireland has had a very special place in my heart.
    Mr. Smith, thank you for being here with us today. We 
deeply appreciate your tremendous support for Belarus 
throughout decades, including all four Belarus democracy acts 
that you introduced and helped enact.
    Mr. Chairman, I would like to submit pictures for the 
record.
    Mr. Keating. Without objection, we can display those 
pictures as you begin your testimony.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Tsikhanouskaya. Thank you.
    So, I am deeply grateful for the great honor of addressing 
you on behalf of the Belarusian people. I am here to give voice 
to the thousands of Belarusians who face injustice, 
intimidation, and brutality, and who still continue to protest 
daily.
    It has been more than 7 months since Belarus has begun the 
united peaceful protest movement, which was met with 
unprecedented violence from the authorities. Over 32,000 people 
have been detained. More than 2,500 criminal cases have been 
initiated. Over 1,000 cases of torture have been documented by 
human rights NGO's. And there are 290 political prisoners at 
the moment. At least eight protestors were killed.
    Not a single government official has been held accountable 
for the brutality, repression, torture, and murder. Amidst the 
injustice, the brave women of Belarus became a symbol of hope 
and resilience for our country.
    Seventy-three-year-old Nina Baginskaya has been protesting 
against the regime since the 1990's, despite the detentions by 
police and raids on her house.
    Miss Belarus 2008, Volha Khizhinkova, and basketball star 
Yelena Leuchanka spent 42 days and 15 days, respectively, in 
detention in unsanitary and humiliating conditions for 
peacefully protesting.
    Women wearing white dresses and carrying flowers formed the 
first human chains a shield for male protestors. Their desire 
to protect was stronger than their fear of being detained and 
tortured. Yet, they could not protect everyone.
    On 10th August, Alexander Taraikovsky fell, the first 
victim of police brutality. He was shot point-blank by a police 
squad in Minsk.
    Two female journalists, Darya Chultsova and Katsiaryna 
Andreyeva, were sentenced to 2 years in prison for doing their 
job, livestreaming a vigil for the peaceful protestor Raman 
Bandarenka, who was murdered by the regime cronies in his own 
backyard for protecting our national symbols.
    With those stories, it was straight that we are dealing 
with a human rights crisis of unprecedented proportions for 
Belarus that keeps worsening day by day. But the people still 
persist.
    Our workers united in strike committees. Our doctors and 
professors stood up for their colleagues who were fired for 
their political views. Our professional athletes raised 
awareness all over the world. Principled police officers and 
investigators resigned. Neighborhood communities have become 
the place for a grassroots movement.
    Yet, all of this is not enough. Lukashenko still has the 
resources to retain power. So, the United States should insist 
on stopping the violence, releasing the political prisoners, 
restoring the rule of law, and launching a genuine dialog 
between the legitimate representatives of Belarus and the 
regime.
    At the same time, it is not words, but actions that matter. 
We call on the U.S. to enforce sanctions against State-owned 
enterprises, the judiciary, and oligarchs. Sanctions are one of 
the most effective measures. We call on the U.S. to use its 
diplomacy to isolate Lukashenko by curbing international 
agreements and commerce between the Lukashenko regime and other 
countries. We call on the U.S. to help with international 
mediation through the OSCE.
    We call on the U.S. Congress to consider increasing the 
support for the pressing needs of Belarusians. People of 
Belarus require support, especially the civil society, the 
human rights defenders, the independent media, and the 
businesses. All of them have been repressed by the regime.
    As the European Union has drafted a comprehensive plan to 
support Belarus during the transition and after free and fair 
elections, we call on the U.S. Congress to join this work in 
order to start developing a joint Marshall Plan for Belarus.
    I am bound by the view of the majority of Belarusians to 
make this happen, and I call on the United States of America to 
join me on this mission. My nation is facing a humanitarian 
crisis. People are suffering and dying right now. Belarusians 
need you as never before.
    Thank you.
    [The prepared statement of Ms. Tsikhanouskaya follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Keating. Thank you very much for that very moving and 
very important testimony.
    I will now recognize members for 5 minutes each. And 
pursuant to House rules, all time yielded is for the purpose of 
questioning our witnesses.
    Because of the virtual format of the hearing, I will 
recognize members by committee seniority, alternating between 
Democrats and Republicans. And if you miss your turn, please 
our staff know and we will circle back to you. If you seek 
recognition, you must unmute your microphones and address the 
chair verbally.
    I would just ask, is Representative Sires still with us? I 
know he had to leave. I was going to yield my time to him. 
Evidently, he has had to leave. So, I will start by recognizing 
myself.
    The role of women in the movement for a democratic and free 
Belarus is really the theme of what we are talking about in 
terms of the democratic movement that is there. And this is 
unique in that respect, and it is effective and it is 
important. And it has really captured the attention of the 
world.
    And I would just like to ask you, what specifically you 
have seen as the role of women in spearheading this effort for 
free and democratic elections and a democracy in Belarus? What 
can you tell us in more detail about that specific role of 
women?
    Ms. Tsikhanouskaya. Actually, the women played a huge role 
in this revolution. And first of all, the fact that three women 
led this pre-election campaign in spite of all other 
prohibitions for women to fight. We three women, we are put in 
this position instead of our men, and it was really the 
regime's mistake that they underestimated women of Belarus.
    Our ex-President always told that our constitution is not 
for women, that women will never be able to lead the country, 
but we managed because women, especially Belarusian women, are 
really strong. And when our women were put in such 
circumstances, when they had to show how strong they are, they 
showed the most bravery that the whole world was inspired of.
    And after 3 days of hell the regime made in Belarus after 
the election date, and thousands of men had been detained and 
tortured in jails, our women had to stand in front of our men, 
just hide the men behind them to protect them. So, our 
wonderful, peaceful women showed to the whole world that we are 
brave and we manage everything, only because we want a better 
future for our children, and we ready to defend not only our 
children, but our men as well.
    Mr. Keating. I think this effort has changed the dynamics, 
gender dynamics, in the country as well. It goes far beyond 
this movement itself.
    Now you recently released a liberation plan of yours. Can 
you highlight the most important aspects of that and how the 
U.S. can be useful in seeing that plan come to life?
    Ms. Tsikhanouskaya. I think that the women of this 
revolution after the election, and before the election, we 
thought that we need new elections because the previous 
election was falsified, and just to step out of this political 
and humanitarian crisis in Belarus, we need new elections. But 
we need these new elections through peaceful dialog with the 
regime.
    But we see that the regime does not respond to our calls 
for negotiations. And that is why we are systematically, 
continuously putting pressure on the regime and his cronies. 
Inside the country, these are protesting movements, 
demonstratives, different initiatives. People are not giving 
up. And despite of this tremendous level of violence from the 
regime, people are continuing to fight.
    But, of course, we need international support as well. We 
need international pressure because democratic countries cannot 
close their eyes on what is going on in Belarus and they have 
to stand for the values of the democratic countries, for human 
rights, for dignity. And it is the institution in Belarus, it 
is a challenge not only for Belarusians, it is a challenge for 
European countries, for the USA, for Canada, just to prove that 
the values are not just words; that they want, that they have 
to stand for these.
    And we are a wonderful country, and we are on our own path 
for democracy. So, we call on you, stand with us in this 
difficult time and do your best for one more nation, proud 
nation, to become a democratic country.
    Mr. Keating. Well, thank you. And I also want to thank you 
for meeting with Ambassador Julie Fisher. I spoke with her just 
the other day, and we are looking forward to her being 
recognized, too, by Belarus.
    I now yield to our ranking member, Mr. Fitzpatrick, for his 
questions.
    Mr. Fitzpatrick. Thank you, Mr. Chairman. Mr. Chairman, I 
would like to begin by asking you, sir, to please enter into 
the record a letter from the Free Belarus Coalition for 
Bipartisan and Bicameral Support requesting $30 million for 
Fiscal Year 2022, funding to support Belarus' civil society and 
the organic democratic movement.
    Mr. Keating. Without objection, that will be, per our 
instructions in the beginning, put in the record. Thank you.
    [The information referred to follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Fitzpatrick. Thank you, Mr. Chairman.
    And this is aligned with the bipartisan 2020 Belarus 
Democracy Act, which calls for increased foreign assistance.
    Ms. Tsikhanouskaya, thank you so much for being here with 
us today. We greatly admire and respect your courage more than 
you know. You are a beacon of courage, not just for us on this 
committee, but for the Congress and for the world.
    So, ma'am, if you could just state for the record, in 
furtherance of this request for $30 million, how will the 
Belarus assistance be best served by those who are pro-civil 
society and are pro-democratic initiatives?
    Ms. Tsikhanouskaya. So, first of all, I have to say that 
your help is very extremely essential in our case, but I have 
to admit that we need rapid help because people are suffering 
now in this very moment in jails and on the ground.
    And so, through those, democracy can progress, can 
increase, and appropriate more funding for two organizations 
working in Belarus. For example, just through traditional and 
emerging civil society, like traditional, we need to help to 
NGO's like defend activists now, to media and to activities, 
and to emerging civil society like Telegram channels, YouTube 
bloggers, athletes, doctors. And you also can increase budgets 
for Belarus of American organizations, such as USAID, for 
example.
    But, again, I have to repeat that this is urgent help. You 
know, just to keep civil society resistance, we need to have 
them now.
    Mr. Fitzpatrick. Thank you, Sviatiana.
    And to all my colleagues on the committee, I urge strong 
bipartisan support for this funding request.
    Mr. Chairman, I yield back.
    Mr. Keating. I would like to thank the ranking member.
    And the chair now recognizes the vice chair of the 
committee, Ms. Spanberger.
    Ms. Spanberger. Thank you very much.
    And thank you for being with us here today, Ms. 
Tsikhanouskaya. You have demonstrated immense bravery and 
selflessness over the past year and a true commitment to the 
people and the future of Belarus. Thank you. And I know that 
those standing up for democratic principles and human rights 
around the world appreciate your tremendous work and, 
certainly, your willingness to be a witness here today.
    After your husband's candidacy for the election in August 
was denied, you took on the role and ran against Lukashenko. 
How has your own vision of your future and leadership evolved 
since August? And frankly, did you ever see yourself taking on 
such a prominent role?
    Ms. Tsikhanouskaya. Thank you. You know, I became in this 
action and campaign a symbol of resistance, a symbol of unity. 
But, as a matter of fact, life put me in such circumstances 
that I had to take this responsibility and become a leader of 
this revolution. And I know that the Belarusian people know who 
they voted for, and I feel huge support from the Belarusian 
people.
    It is a rather difficult way. You know, I was put in 
difficult circumstances. I feel huge pressure from propaganda. 
And I know that all the Belarusian people are feeling 
tremendous pressure on the ground. But knowing that I am doing 
this for the future of the Belarusian people, for my children, 
for all those who are suffering in jails now, I have to find 
strength every day of this fight, and I am finding this 
strength in the Belarusian people. I know that they are 
fighting and that they are not giving up. So, I have no right 
to give up as well.
    It is difficult, but I am a woman, and a woman is 
everything.
    [Laughter.]
    Ms. Spanberger. Isn't that so true?
    Well, I am curious, then, how has your forced exile 
affected your ability to interact with the democratic movement 
back home in Belarus? And how has it impacted your ability to 
communicate and advocate, and certainly lead, this continued 
movement?
    Ms. Tsikhanouskaya. You know, it was the usual regime's 
practice to make the people flee from the country for them to 
stop struggling. And the same happened to me. I was sent out of 
the country and I was supposed to stop, but I could not. I 
could not betray the Belarusian people.
    And, you know, the propaganda always say, ``Oh, she lost 
this connection with Belarus. She is an exile. She does not 
understand everything.'' But it is not true. And thanks to the 
internet, every day I have some conferences and some meetings 
with all the groups in Belarus. I have meetings with doctors, 
with students, workers, striking committees, neighborhoods. 
Every day I have to tell people, I have to look into their 
eyes, I have to inspire them, and they inspire me back. So, for 
sure, I am not losing this connection. I feel like I am there 
on the ground through this connection.
    But, of course, knowing that I will be jailed as soon as I 
pass the border, I am sure that here, even in exile, I can do 
much, much more for the Belarusian people, for the sake of my 
country. So, I have to stay here and struggle to bear that with 
the Belarusian people.
    Ms. Spanberger. Well, I want to thank you so much for 
bringing your answers to this committee, certainly your 
experiences. Thank you for your continued work on behalf of the 
Belarusian people and on behalf of democratic ideals and 
values. It is amazing to see leaders like you who are fighting 
for the rights of the people they should be representing and 
that they want to stand up for. So, thank you again for coming 
before this committee. Thank you for telling us, as a 
committee, what we could be doing to support. And I think you 
have heard so far that you have many American Members of 
Congress who are paying close attention to your ongoing 
struggles and the struggles of your people. So, thank you very 
much.
    And, Mr. Chairman, I yield back.
    Mr. Keating. The chair thanks the vice chairman.
    It is my understanding that Representative Wagner has 
yielded her time to Representative Smith. So, the chair calls 
on Representative Smith for his questions.
    Mr. Smith. Thank you very much, and, Ann, thank you very 
much.
    Mr. Chairman, thank you again for this important hearing, 
so we can reassert, recalibrate, and do even more to help the 
democratic opposition in Belarus. And Sviatiana certainly 
epitomizes grace under pressure, courage under pressure, and we 
are all inspired, I think, beyond words to do more to assist.
    You, in your recent appeal to the United Nations, you and 
the United States, Sviatiana, asked that political prisoners 
and trying to support political prisoners, that we sanction 
prison chiefs, judges, prosecutors, prison guards. And I am 
wondering, is it your sense that we are doing enough to try to 
impose those sanctions? Obviously, getting the names of those 
individuals is extremely important, and the more we have that, 
the more we can try to hold them to account.
    You have also noted the gross mistreatment of the female 
prisoners, including threatening to take their children away, 
humiliation of all kinds, beatings, all kinds of assault, 
humiliation. If you could perhaps elaborate on some of that, 
because it is outrageous.
    I have met with Lukashenko twice. He is a bully. We all 
know that. I think he is an egomaniac. We all know that.
    But, for those who are behind bars, we have to got to find 
the most effective strategies to intervene, and to do it 
immediately. In this, bottom line, do you think we are all 
doing enough, the European Union, the United States, the U.N.? 
And be blunt. You know, everyone means well. We all mean well. 
This is totally bipartisan. And again, the chairman I think is 
doing a great job. His resolution will, again, give us an 
opportunity to speak out with one voice when that comes up on 
the floor of the House. Don't worry about being diplomatic. We 
have got to know, are we doing enough? Sviatiana?
    Ms. Tsikhanouskaya. Yes, I am here. I have to say that I am 
really grateful for all the actions that Europe and America and 
Canada did, have done already, because you stand for us in the 
crucial moment of our revolution, just after the elections. No 
one country recognized Lukashenko as legitimate. Everybody told 
that the elections were fraudulent, Lukashenko is illegitimate. 
And just I ask you at the moment to be consistent in your 
vision.
    And I understand that you have done a lot and you imposed 
sanctions, individual sanctions. But, you know, what is going 
on in Belarus, it is my personal pain. And, of course, just to 
stop this level of violence, just to start negotiations, to 
start to develop, we need more pressure on the Lukashenko 
regime. And in this way, I suppose that sanctions are the most 
powerful leverage to make this regime to respond to our calls 
for dialog.
    And now, we need to widen this list of individual 
sanctions. These sanctions should be imposed on security forces 
offices, judges, educational and support officials who support 
the regime, who in this or that extent were involved in 
atrocities and humiliation and violence in Belarus.
    And also, Congress should also legislate to widen the 
sectorial sanctions, such as in the oil and gas and the potash 
fertilizers industries, just to strike at the regime's most 
important benefactors and prime resources of resilience.
    So, we have to put sanctions on those like bullies of 
Lukashenko that support the regime. And support the regime 
means supporting violence and torture in Belarus. So, I am sure 
that you can do more and more. Until this violence stops, we 
have to put greater pressure on the regime.
    Thank you.
    Mr. Smith. Thank you.
    Mr. Keating. Thank you, Representative.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Keating. The chair now recognizes Representative Wild.
    Ms. Wild. Thank you, Mr. Chairman. Sorry for the delay in 
getting my mute off. I appreciate it. Sorry.
    Mr. Keating. Okay.
    Ms. Wild. Okay, I am ready to go. I am sorry about that.
    First of all, I just want to start by echoing comments made 
by my colleagues in recognizing your courageous efforts to 
build a democratic future in Belarus. Your leadership is 
inspiring.
    And my question is about the role of U.S. diplomacy. I 
would like to know what your thoughts are on the role that 
might be played by newly appointed Ambassador Julie Fisher in 
promoting democracy and supporting the democratic aspirations 
of the people of Belarus. And as she engages with a regime that 
does not have popular legitimacy, what message would you like 
our Ambassador to convey?
    Ms. Tsikhanouskaya. Thank you. As a matter of fact, with 
Julie Fisher, we had a wonderful conversation, and I saw such a 
huge empathy for the Belarusian people from her. And I 
understood that she would be the greatest diplomat on the 
ground ever.
    And, of course, we welcome the presence of Julie Fisher on 
the ground for her to monitor the situation in Belarus. She can 
visit jails just to see conditions of keeping women and men in 
jails. They are unhuman, I have to say. She can visit trials, 
you know, to see that there is no law in Belarus. She can 
support civil society in different ways.
    But a very important moment, Julie Fisher has not given 
credentials to Lukashenko. He is not the legitimate President 
and he cannot be considered as a person whom credentials can be 
given to. So, I am sure it can be done, you know. I mean, she 
can stay there as a diplomat without doing this action.
    Ms. Wild. Thank you.
    And I have a little bit more time. So, I also wanted to ask 
you, you have called on the pro-democracy movement to hold 
demonstrations on March 25th, on Freedom Day, marking Belarus' 
declaration of independence in 1918. What I would like to know 
is, what can we, as Members of the U.S. Congress, and others 
who stand in solidarity with pro-democracy forces, do that 
might be helpful to put pressure on the regime ahead of that 
day or on that day?
    Ms. Tsikhanouskaya. On the 25th of March, it is our 
independence day in Belarus, and people went out for 
demonstrations every year. And for sure, this year will not be 
an exclusion. And moreover, people demand this day will be the 
beginning of the new wave of demonstrations in Belarus, new 
wave of protesting movement.
    And people really have this in a demand to show them that 
we are here; we are people that have our rights to vote, to say 
everything. And, of course, people will go for the rallies, and 
people are continuing putting pressure by different 
initiatives.
    And just to support these people, the whole world has to 
show solidarity with them, to be vocal about them, to put these 
facts on the reader, that, look, there are some people who are 
fighting; they are still there, and we have to help them. Just 
put the repression of Belarus on the agenda. Be with us with 
any different ways. Talk about us in the social media, in the 
social networks. You know, put us on the agenda, and we will 
see this. Because international support is extremely important 
in our case. We have to know that the whole world is watching 
us, that we are not alone.
    Ms. Wild. Thank you so much. We will do our best to support 
you.
    I yield back, Mr. Chair.
    Mr. Keating. Thank you, Representative Wild.
    Representative Wagner is now recognized for 5 minutes.
    Mrs. Wagner. I thank you, Mr. Chairman, for this very 
important hearing. I am proud to stand with the Belarusian 
democratic movement as it demands greater freedom and respect 
for fundamental rights from the authoritarian Lukashenko 
regime.
    I want to thank our witness, Ms. Tsikhanouskaya, for her 
courage and tireless work for the people of Belarus.
    Ms. Tsikhanouskaya, you wrote last year that ``Access to 
information is the strongest weapon'' the opposition has. And I 
could not agree more. Truth is the potent threat to 
authoritarianism, and shedding light on the abuses perpetrated 
by the Lukashenko regime advances democracy and liberty for 
Belarusians. What more can the United States do to support 
independent media in Belarus and amplify voices that continue 
to exercise their rights to dissent and free speech?
    Ms. Tsikhanouskaya. Thank you. Yes, you are so right, the 
media is really important in our case because
    [audio interference] in Belarus. You know that this regime 
has oppressed almost all the independent media in Belarus. They 
cannot work. The regime did not create international media. 
They did not allow international media to come to Belarus, just 
because he had a lot to hide. He had to hide his crimes, 
violence, and atrocities. And still, just for media to survive 
in Belarus, they really need great support.
    And first of all, you can, at the moment, you can support 
different YouTubers that are on the ground and out of the 
country, show us the real situation in Belarus. You have to 
call to free imprisoned journalists who just have been detained 
for doing their job. And you can support Telegram channels that 
also show the real picture, the crowds. And you can support 
Radio Free Europe on the ground. So, a lot can be done really, 
and thank you for what you are doing already.
    Mrs. Wagner. Thank you.
    In the coming months, how will opposition's Coordination 
Council work to sustain the pro-democracy movement in Belarus? 
How is the Lukashenko government obstructing the Council's 
mission, and how can the United States best pressure Lukashenko 
to end political persecution of Council members specifically?
    Ms. Tsikhanouskaya. You know, the Coordination Council was 
created as they pled for negotiations, and they are building 
structures inside the country, different working groups that 
are working with students, with striking committees, with 
neighborhoods, and all this stuff. And this new form of social 
groups, pressure social groups, are extremely important. It is 
like a new building of democratic organizations. We have never 
had democracies within our country. It is like grassroots 
democracy.
    And every country can support this organization, these 
grassroots organizations, like teaching them how to build this 
democracy, how to be involved in this political competitions, I 
would say. And we have to start everything. We have to start 
everything from the beginning, and you can assist us in this.
    Mrs. Wagner. Thank you very much.
    I understand that the Kremlin sent Russian propagandists to 
work at Belarusian State TV in support of the Lukashenko 
regime. Are these propagandists still actively working in 
Belarus, and are their efforts to shape the information domain 
in Belarus in Lukashenko's favor, is it working?
    Ms. Tsikhanouskaya. You know, after the
    [audio interference] violence after the elections, most of 
journalists were fired from State TV, but they very soon were 
replaced by Russian journalists. And Russian journalists did 
not feel the pain that the rest of the journalists felt. And, 
of course, they could use this propaganda very widely to show 
me in the bad way, I would say.
    But now, I know that the Russian journalists, they already 
went back to Russia, but, still, propaganda in Belarus is 
working very hard. They want to discredit me. They want to show 
that the opposition is splitting, but it is not; it isn't so. 
And they put much, they put a lot of efforts to show that the 
opposition like died. And every day we show to the whole world 
that we are still here, that we are fighting. So, we are 
fighting with the propaganda as well. They cannot do anything 
when the opposition is united.
    Thank you.
    Mrs. Wagner. Well, thank you. Thank you, Ms. 
Tsikhanouskaya. We are grateful for your courage.
    And I have expired my time. Gratefully, Mr. Chairman, I 
yield back.
    Mr. Keating. Thank you.
    The chair recognizes Representative Deutch for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman. Mr. Chairman, I want 
to really extend a deep debt of gratitude to you for holding 
this hearing today. There are a lot of things that our 
committee does, and they are all important, but what we are 
doing today in this hearing, and the message that we are 
sending to Lukashenko, the message that we are sending to the 
people of Belarus, the message that we are sending to the 
Kremlin and to the world, that we are committed to helping to 
foster democracy, to standing on the side of those who want the 
ability to live in a democracy. That is as important as 
anything we will do.
    And, Ms. Tsikhanouskaya, there is no one who has done more 
in Belarus to help accomplish than you. And I want to thank you 
for appearing before the committee. I want to thank you for 
your powerful testimony.
    We see in the work we do here the constant, relentless 
threat that authoritarianism poses to democracies and to 
democratic values. And Belarus and the United States may not be 
neighbors, but the struggle in Belarus today is a generational 
challenge that we cannot afford to look away from. We have to 
lead.
    And as my colleagues have made clear, the U.S. Congress 
stands with the people of Belarus and we support you as you 
work to withstand Russian aggression, create a freer, more 
democratic nation. So, the battle lines of the fight to protect 
democratic values and human rights transcends State boundaries 
and peoples. It is imperative that those who stand for 
democracy everywhere, including here in the United States, 
recognize one another as partners in this struggle.
    And not only am I an American invested in protecting my own 
country's democracy, I am also, Ms. Tsikhanouskaya, the proud 
grandson of immigrants from two small towns in Belarus.
    And I thank you for your testimony today, and I thank you 
for your courage and for your determination.
    I want to ask you, we have spoken a lot, you have spoken 
powerfully about the pressure that Lukashenko must feel. 
Recently, Lukashenko talked about enacting constitutional 
reforms at a referendum next year and organizing new 
Presidential elections sometime thereafter. How do you 
interpret these actions, and what can we do to not fall prey to 
efforts to shield Lukashenko and others responsible for the 
jailings, the attacks on journalists and activists, from our 
actions now? What do we do here with this?
    Ms. Tsikhanouskaya. You know, I have to say that when the 
regime is at risk, it starts to talk about a new constitution 
and referendum, and all this stuff. We aren't talking about new 
elections. We are talking about dialog between society sources 
and the regime. We need amending of the constitution, but it is 
not the question now. The question now is solving a political 
and humanitarian crisis in Belarus. And this amendment of the 
constitution expressed, that he is talking about, it should 
take place alongside with new elections or right after the 
elections. We have to show priorities in our revolution.
    So, as for journalists, again, I have to say that 
journalism is a very important factor in our revolution, and it 
is important to support them because they are lack of space, 
you know, in the country. They cannot earn the money just to 
show us this truth. So, this technical support to journalists 
is very important.
    So, have I missed----
    Mr. Deutch. No, I appreciate it. As I finish, I just want 
to thank you again for your courageous leadership.
    I want to thank the chairman and the ranking member, Mr. 
Smith and others who have been helping us focus the world's 
attention.
    And as you approach these Freedom Day protests, as you talk 
about the need for grassroots democracy, and even as 400 
activists have been sentenced to prison, including a 16-year-
old suffering from epilepsy who was sentenced to 5 years in 
prison simply for participating in the protests, please know 
that it is not just this subcommittee and the House Foreign 
Affairs Committee, but that the U.S. Congress and the people of 
the United States stand with you and the people of Belarus in 
your rightful quest for democracy. And we are so honored by 
your presence today. Thank you very much.
    I yield back.
    Mr. Keating. Thank you, Mr. Deutch. Thank you for your 
strong remarks and incorporating your family background. That 
was very meaningful.
    Representative Titus is recognized for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. And thank you for 
setting up this amazing meeting. I cannot imagine having a more 
inspiring witness than we have this morning.
    Thank you for your courage and for being here.
    I would just ask you if you would maybe elaborate on the 
plan that you call the liberation plan that you came out with 
in February. Talk a little bit about maybe your deadlines, what 
you see as part of that plan. Will you be working with any 
NGO's or organizations like NDI or IRI to help you with that?
    And is part of that plan dealing with COVID? I know that 
Lukashenko has just pretty much denied COVID and said, ``Go to 
a spa and drink vodka and you'll be Okay.'' But someone of your 
stature and your presence could have a lot of impact on 
addressing that issue as well.
    Ms. Tsikhanouskaya. You know, the COVID situation is 
rather, I would say, interesting in Belarus because, when the 
whole world was struggling with COVID, with the first wave of 
COVID, our regime told that there was no COVID in Belarus, and 
even if it is, so you can treat it with ``tractors and vodka''.
    And a moment when the regime did not take care of--there 
were some people in the spring. The Russians had to take care 
of themselves. They started to buy this usual mix for doctors 
and this special proven equipment. They collected money to buy 
this equipment for hospitals. So, at that moment, again, we had 
a proff that government does not take care about the Nation.
    And now, the situation is also very bad with COVID on the 
ground, but we know that real numbers are much higher than the 
government say. And one doctor who dared tell the real numbers 
was immediately fired from their hospital, just for telling the 
truth.
    And as for our plan, you know, there cannot be deadlines 
here. Of course, we want new elections to happen on September. 
For this, we have to start dialog this May. That is why people 
are beginning the second wave of the protesting movement in 
Belarus on the ground. That is why this is a very crucial 
moment for all the international society, for all the countries 
and leaders and organizations to put maximum pressure on the 
regime to make him answer our calls for dialog.
    So, we have, if we can say so, spring is the beginning of 
protests. Until May, we have to organize this data platform on 
the basis of overseeing and start to negotiate about new 
elections in September or October this year.
    Ms. Titus. Thank you very much.
    You have quite a task ahead of you. Are you working with 
any NGO's on the ground there? Are there any formal 
organizations? Or is it just kind of spontaneous protests?
    Ms. Tsikhanouskaya. You know, it is very difficult for 
NGO's to survive in Belarus. They are pressed; they are under 
constant pressure. And we can say that we have like legal NGO's 
in Belarus and illegal. I cannot pronounce these words, but 
this is our reality. And we are just trying to help, and, you 
know, the international society is trying to help a different 
kind of NGO's on the ground, for them to transfer this help to 
people who are suffering, people who are in prison, people that 
are fighting. So, we have to like look for new forms of helping 
these NGO's. It is very difficult to work in the country where 
there is no law. You know, all the organizations that are 
helping people are under constant pressure of the regime 
because they don't want this organization to help.
    Ms. Titus. Yes, they don't even want it to exist.
    Well, thank you so much. And thank you for being here and 
for your courage. Just be careful there. Just be careful.
    Ms. Tsikhanouskaya. Thank you so much.
    Mr. Keating. Thank you, Representative Titus.
    Representative Schneider is recognized for 5 minutes.
    Mr. Schneider. Thank you, Chairman Keating. And as others 
have said, I cannot thank you enough for having this hearing.
    And, Mrs. Tsikhanouskaya, I cannot thank you enough for 
spending the time to share with us your story, but also cannot 
thank you enough for the inspiration you provide to your 
country, to the world, for democracy, for courage, bravery, and 
hope.
    I join with my colleagues on this panel who I believe are 
representative of the entire U.S. Congress, and by extension, 
to the entire American people, in standing in solidarity with 
you, with the heroic women leading the way, and with the entire 
Belarusian people, and the pro-democracy movement.
    Personally, my story has connections to Belarus. My 
maternal grandfather's family was from Brest-Litovsk in 
Belarus. They came here at the turn of the last century, but we 
can trace the roots back there.
    I take personally extraordinary inspiration from the 
bravery and the defiance, the resiliency, of the women of 
Belarus that we have talked about today and of the Belarus 
people as a whole.
    I have three questions we can touch on, try to get into 
specifics. I will lay them out, and then, you can address them 
any way you want.
    But, first, what can Congress do to best support you and 
the pro-democracy movement, to support your resolve, the 
resilience, to stand strong throughout this crisis, until we 
get to the end we all hope for?
    Toward that end, in more detail, what pressure can we apply 
to the regime? You mentioned sector-specific sanctions. What 
specific sectors do you have in mind and are there specific 
entrepreneurs we should be focused on?
    And finally, what can Congress, the United States, and our 
allies do to, in your words, create a positive program for 
change for a new Belarus?
    And I think I may have lost you.
    Mr. Keating. Yes. Could we just pause for a moment?
    Ms. Tsikhanouskaya. It was the button. Sorry.
    Mr. Keating. Perhaps if you could just summarize again 
quickly, if that is possible. Representative Schneider, could 
you just----
    Mr. Schneider. I am sorry, were you able to hear me, Ms. 
Tsikhanouskaya, or do I need to summarize?
    Ms. Tsikhanouskaya. Yes, yes, yes. I just think--I am 
sorry--help support the Belarusian people or Belarus at the 
moment; how to be with the Belarusian people? So, first of all, 
this is like three pillars.
    First of all, it is pressure on the regime--sanctions, 
putting political pressure on Lukashenko politically and 
economically, and all this stuff.
    Second, it is support to civil society--media, workers, 
medics, any groups of people.
    And the third pillar is justice in our country. There is no 
law at the moment in Belarus. We have to look for justice in 
other countries. In many cases, investigation of crimes in 
Belarus have been started on the basis of universal 
jurisdiction--you know, Lithuania, Poland, the Czech Republic.
    So, you can like support the three pillars or through 
something else you can. And second, you can support the U.N. 
accountability mechanism for investigating crimes in Belarus. 
And again, from the USA sectoral sanctions, in such spheres, 
oil, gas, and potash fertilizer industries are very important. 
Just if you find any State organizations that are like wallets 
of Lukashenko, oligarchs that are supporting this regime, 
supporting violence, and impose sanctions on them, it will be 
very good, strong leverage on the oppression for the regime.
    And as for the future of Belarus, you know, the only thing 
I want from the future of Belarus is that my children and the 
new generation feel safe on the ground; that they understand 
that a person is their highest value for this country; you 
know, that everybody, every person is responsible for building 
this new Belarus.
    And, you know, having paid such a huge price during this 
revolution for a new Belarus, I am sure that every Belarusian 
will do his or her best to stay united in the future and to do 
everything to come to democracy.
    Mr. Schneider. Thank you. That is a phenomenal, inspiring 
answer, and know that we are with you. Know that we are 
cheering for your country, for your people.
    And with that, I yield back.
    Mr. Keating. Thank you, Representative.
    Representative Meuser is recognized for 5 minutes. 
Representative Meuser?
    Mr. Meuser. Yes, thank you, Chairman.
    Thank you for attending this hearing with us. It is 
certainly some compelling testimony.
    Ms. Tsikhanouskaya, you wrote in a Washington Post op-ed 
last year that, ``we will continue our boycott of the State 
apparatus. Many private businesses have stopped dealing with 
State-owned banks; more will do the same. Whenever possible, 
businesspeople should delay, refuse to pay and refuse to buy 
products from State-owned factories.''
    Can you describe how things have gone since making those 
statements? And has it been successful? Has it had some 
deteriorating factors? Maybe expand upon that a little bit, if 
you would not mind, Ms. Tsikhanouskaya.
    Ms. Tsikhanouskaya. So, can you repeat the question?
    Mr. Meuser. Your comments in The Washington Post op-ed that 
you had written last year regarding boycotting of State-owned 
businesses and factors, can you please expand upon what support 
that was met with? Heavy resistance? Problems for you 
personally? Has it met with any success?
    Ms. Tsikhanouskaya. Well, many people say sanctions can 
make people suffer on the ground because they will lose their 
job or something. But people are already suffering. It is not 
my demand, putting sanctions on the State organizations. It is 
the people's demand who are working in these organizations. You 
know, they are suffering at the moment. They have been fired. 
They are putting on pressure from the regime. They are 
humiliated or other factors in different ways. They get small 
salaries and have a lot to do on the factories. But, still, 
they lead this sanction because people understand that this 
economical pressure will ruin this regime.
    When the regime does not have money to pay to the riot 
police, riot police will refuse to serve this regime. You know, 
it is like a circle. If factory does not pay the regime, the 
regime does not pay the riot police, and the regime does not 
have support because the only support at the moment the regime 
has, it is violence--violence executed by riot police. So, 
people are ready to suffer because of lack of salaries, but 
they want to change this regime so much that they want the 
sanctions most of all.
    Mr. Meuser. Okay. And so, the nine Belarusian officials and 
four entities related to human rights abuses that were 
sanctioned several months ago, has that been effective and 
should that be expanded, in your view? Based on what you 
Stated, we should be engaged in more, heavier sanctions of more 
individuals as well as entities that are part of this 
suppression?
    Ms. Tsikhanouskaya. Of course, I have to say that we are 
grateful for all the sanction list you have already enforced. 
But we see that the number of people is not enough. Because 
this very narrow circle of people sanctioned, they know how to 
avoid the sanctions. You know, they don't have assets in your 
banks already. They know how to avoid this.
    But those people, the judges, security forces offices, 
education and support officials that support the regime, they 
also to be put on the sanctions list. Because the next time, 
the next judge will think twice before making a crime against a 
person or against demonstrators, peaceful demonstrators.
    The threat of these sanctions is sometimes even more useful 
than any other way of pressure on these people. For sure, the 
sanction list has to be widened.
    Mr. Meuser. Right. Thank you very much.
    And, Mr. Chairman, I yield back.
    Mr. Keating. I thank the gentleman for his comments.
    And just a couple of closing remarks. Our thanks, Ms. 
Tsikhanouskaya. This was an enormously moving hearing, an 
unusual hearing in that respect. And your participation and 
taking the time to talk to us in Congress is so important.
    And my colleagues, I want to thank all of them. It is an 
abnormally busy day today for many reasons, and the 
participation was extraordinary at this subcommittee hearing.
    I would say this: that, Ms. Tsikhanouskaya, you began the 
hearing with your remarks wishing us a happy Saint Patrick's 
Day. And I want to think about the words of a very famous Irish 
poet, Seamus Heaney. And he remarked at one point--and it is a 
remark that is used quite often by our President, President 
Biden--when they were talking about a period of troubles in 
Ireland that was so severe. He said that, ``If we winter this 
one out, we can summer anywhere.''
    And I think winter has descended in terms of democracy 
right on Belarus, and the world knows that and the U.S. knows 
that. And we are going to weather this winter together, a 
winter of authoritarian rule, of violence, of intimidation. And 
we are going to work together with you, hopefully, joining 
together as a diaspora, as well as government officials. As you 
go forward with your IT platform and strategy and victory, we 
will be looking, and perhaps helping, to deal with those issues 
as you go forward.
    But I want to tell you we will continue. The U.S. will 
fully implement the powers that it can implement for democracy 
in Belarus. We will work on a continuing basis to stop the 
violence there, to push for the release of political prisoners 
there, and to make sure that there is a genuine dialog between 
the people of Belarus and forging ahead to a legitimate 
government where people can be represented.
    And just in your last few remarks, I think you summed up 
the goals of all of us in a free world when you just said, What 
we want most is to pass a better world and better country to 
our children. And importantly, you said, every person has a 
responsibility.
    So, I want to assure you that we view our responsibility as 
standing up for Belarus, for democracy. And you continue to 
inspire us every day. And the work and the effort that you have 
done, joined by so many courageous individuals, and the 
hallmark of them, probably in this effort more than many 
others, of women being involved is so important.
    So, thank you so much for being here. We will continue to 
work with you to make sure that the people of Belarus can get 
through this winter. And then, when that happens, we can all 
celebrate democracy all the time in the summer. So, thank you 
so much.
    And with that, this hearing is adjourned.
    [Whereupon, at 10:53 a.m., the subcommittee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

            RESPONSES TO QUESTIONS SUBMITTED FOR THE RECORD
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
